No. 21-253
IN THE

Supreme Court of the United States
STATE OF OKLAHOMA,
Petitioner,
v.
CHRISTOPHER JASON HATHCOAT
Respondent.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 8th day of October 2021, caused a copy of the Motion for Leave to
Proceed in Forma Pauperis and the Brief in Opposition to be served via overnight mail
and an electronic version of the document to be transmitted via the Court’s electronic
filing system to:
Mithun Mansinghani
Solicitor General
Office of the Oklahoma Attorney General
313 NE 21st Street
Oklahoma City, OK 73105
(405) 522-4392
mithun.mansinghani@oag.ok.gov
Counsel for State of Oklahoma

/s/ Zachary C. Schauf
Zachary C. Schauf

